APPENDIX TABLE OF CONTENTS
Opinion of United States Court of Appeals for
the Sixth Circuit (April 30, 2019) ...................... 1a
Order of the District Court Granting Defendants’
Joint Motion to Dismiss the Complaint
(April 30, 2018) ................................................... 9a
Relevant Statutory Provision ................................. 16a
The Government’s First Amended Complaint
(Case No. 17-cv-12281)
(July 14, 2017) .................................................. 20a
Hunter’s Complaint
(Case No. 17-cv-13494)
(October 26, 2017) ............................................ 31a
Defendants’ Joint Motion to Dismiss the
Complaint—Relevant Excerpts
(December 7, 2017) ........................................... 41a
Transcript of Motion Hearing
(April 10, 2018) ................................................. 45a

App.1a
OPINION OF UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(APRIL 30, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
CHARLES R. HUNTER,

Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA; STERLING
MORTGAGE AND INVESTMENT COMPANY,

Defendants-Appellees.

________________________

Case No. 18-1728
________________________
On Appeal from the United States District Court
for the Eastern District of Michigan
Before: ROGERS, DONALD, and
THAPAR, Circuit Judges.
THAPAR, Circuit Judge.
Charles Hunter wants the IRS to enforce its tax
lien on a home that he once owned. But because Hunter
no longer has a legal interest in that home, the district
court dismissed his claim. We affirm.

App.2a
I.
Twenty years ago, Charles Hunter purchased a
home in Michigan (the “Lakeside Property”). Five years
later, he secured a mortgage with Wells Fargo on the
Lakeside Property. But when Hunter failed to pay his
federal taxes for several years, the IRS filed multiple
liens against Hunter’s “property and rights to property”—including the Lakeside Property.
To compound his financial woes, Hunter also
defaulted on his mortgage. So Wells Fargo foreclosed
on the Lakeside Property and sold it to Sterling
Mortgage & Investment Company. Wells Fargo tried to
notify the IRS about the sale, but it sent the notice to
the wrong address. As a result, Sterling bought the
Lakeside Property with the government’s liens still
attached. See 26 U.S.C. § 7425(b).
The United States subsequently filed suit to
enforce its liens against the Lakeside Property. The
government sued both Sterling (the current property
owner) and Hunter, who at that time still had a right
to redeem the property under Michigan law. See Mich.
Comp. Laws § 600.3240(8). The three parties eventually
agreed to a voluntary dismissal without prejudice.
Before the dismissal, the United States and Sterling
had worked out a deal between themselves: Sterling
would sell the Lakeside Property and split the “net
profits” evenly with the United States. R. 8, Pg. ID
33. The United States would then apply its proceeds
towards Hunter’s tax liability. Shortly after Hunter’s
right to redeem the property lapsed, Sterling moved
to evict Hunter from the Lakeside Property. See Mich.
Comp. Laws § 600.3240(8).

App.3a
In response, Hunter sued to quiet title to the
Lakeside Property. In his putative quiet title action,
Hunter sought (1) a declaratory judgment that the
government’s tax liens have priority over Sterling’s
interest in the property and (2) an order forcing the
government to enforce its tax liens through a judicial
sale. If the United States fully enforced its tax liens,
Hunter argued, it would receive more money—and if
the government received more money, he would owe
less in tax liability.
Both Sterling and the United States moved to
dismiss the case for lack of subject-matter jurisdiction.
The district court granted their motion to dismiss,
and we review that dismissal de novo. Wayside Church
v. Van Buren Cty., 847 F.3d 812, 817 (6th Cir. 2017).
II.
As a matter of first principles, the United States,
as the sovereign, has immunity from most lawsuits.
Cohens v. Virginia, 19 U.S. (6 Wheat.) 264, 411-12
(1821); see also 1 William Blackstone, Commentaries
on the Laws of England *235 (“Hence it is, that no
suit or action can be brought against the [sovereign],
even in civil matters. . . . ”). That immunity deprives
a federal court of jurisdiction to hear cases brought
against the United States. See United States v.
Sherwood, 312 U.S. 584, 586-87 (1941). But Congress
can waive this immunity and allow lawsuits against
the federal government to go forward. Id. Such a waiver
must be express, and courts must construe it narrowly.
Soriano v. United States, 352 U.S. 270, 276 (1957).
Here, Congress waived sovereign immunity from any
action “to quiet title to . . . real or personal property
on which the United States has or claims a mortgage

App.4a
or other lien.” 28 U.S.C. § 2410(a)(1). Although Hunter
named his complaint a “quiet title” action, he still
must show that he has actually brought a “quiet title”
action as that term is used in § 2410. If he cannot,
then Congress did not waive sovereign immunity, and
we lack jurisdiction over this suit.
Courts do not uniformly agree about the meaning
of “quiet title” in § 2410. Some courts have read the
words “quiet title” narrowly. These courts have said
that Congress waived immunity only over disputes
about title to property and not other, analogous disputes
about interests in property. E.g., Raulerson v. United
States, 786 F.2d 1090, 1091-92 (11th Cir. 1986); cf.
Hopkins v. Walker, 244 U.S. 486, 490-91 (1917)
(distinguishing between traditional quiet title actions
and analogous disputes about property interests);
accord Holland v. Challen, 110 U.S. 15, 18 (1884). This
interpretation follows the old common law approach,
where quiet title actions aimed to end protracted
lawsuits about who owned property. See Holland, 110
U.S. at 20. But other courts have interpreted Congress’s waiver more broadly, saying that quiet title
actions can also seek to remove a cloud over already
established title. E.g., United States v. Coson, 286
F.2d 453, 457-58 (9th Cir. 1961); see also Nationstar
Mortg., LLC v. Humphrey, No. 11-2185-STA, 2011
WL 3273077, at *4 & n.9 (W.D. Tenn. July 29, 2011)
(collecting cases). This interpretation reflects the fact
that, when Congress added the words “quiet title” to
§ 2410, most states had enacted statutes broadening
quiet title actions to also include cloud-removal
disputes. See Wehrman v. Conklin, 155 U.S. 314, 322
(1894); see also Falik v. United States, 343 F.2d 38,
41-42 (2d Cir. 1965); Pub. L. No. 780, 56 Stat. 1026,

App.5a
1026 (1942) (adding “quiet title” to § 2410). In this case,
we need not decide the precise extent to which Congress waived immunity because Hunter loses under
either interpretation.

Narrow title. Under the narrower title-interpre-

tation, Hunter did not bring a quiet title action
because his complaint does not contest who holds
title to the Lakeside Property. Instead, his complaint
seeks two things: (1) a declaratory judgment that the
government’s tax liens have priority over Sterling’s
interest in the property and (2) an order forcing the
government to enforce its tax liens through a judicial
sale. Neither request requires a determination of who
holds title to the Lakeside Property. Even if the government has superior tax liens, Sterling would still
hold uncontested title to the Lakeside Property. See
Vereyken v. Annie’s Place, Inc., 964 F.2d 593, 596 (6th
Cir. 1992). Nothing in Hunter’s complaint suggests
otherwise. Accordingly, because Hunter does not challenge who has title to the Lakeside Property, he has
not brought a quiet title action under the narrower
title-interpretation. See Raulerson, 786 F.2d at 1091-92.

Clouded title. Alternatively, Hunter did not bring

a quiet title action under the broader cloud-interpretation because he does not seek to remove a cloud
over his own title. Hunter’s complaint does, in a sense,
seek to remove a cloud over the Lakeside Property:
the government’s tax liens. But in order to remove
that cloud over the Lakeside Property’s title, Hunter
must have title to that property. Cf. Hopkins, 244
U.S. at 489 (“It hardly requires statement that in
[cases to remove cloud from a title] the facts showing
the plaintiff’s title . . . are essential parts of the
plaintiff’s cause of action.”). Not only does Hunter

App.6a
lack title to the Lakeside Property, he also lacks any
property interest in it. Michigan law defines the scope
of Hunter’s property rights. In re Town Ctr. Flats,
LLC, 855 F.3d 721, 724 (6th Cir. 2017). Michigan law
gave Hunter a right to redeem the Lakeside Property
within six months of when Wells Fargo foreclosed on
it and sold it to Sterling. Mich. Comp. Laws § 600.
3240(8). But what Michigan law giveth, it also taketh
away. When Hunter’s six-month window closed in October 2017, his “right, title, and interest in and to the
[Lakeside] property” extinguished. Conlin v. Mortg.
Elec. Registration Sys., Inc., 714 F.3d 355, 359 (6th
Cir. 2013) (quoting Piotrowski v. State Land Office
Bd., 4 N.W.2d 514, 517 (Mich. 1942)); see also Mich.
Comp. Laws § 600.3236. Without an interest in the
Lakeside Property, Hunter cannot remove a cloud
from its title. Cf. Hopkins, 244 U.S. at 489.
Hunter argues that this broader cloud-interpretation also encompasses suits by a lienholder who
wants to determine lien priority—even if the lienholder
does not hold title to the underlying property. E.g.,
McEndree v. Wilson, 774 F.Supp.1292, 1296-97 (D.
Colo. 1991). But the courts that have permitted such
quiet title actions to resolve lien priority have done
so only when the plaintiff himself was a “private
lienor.” United States v. Brosnan, 363 U.S. 237, 24446 (1960); United States v. Morrison, 247 F.2d 285,
290 (5th Cir. 1957). Here, Hunter is not a private
lienor. Instead, he seeks to adjudicate the priority of
another party’s lien so that he can gain a derivative
benefit: lower tax liability. If the United States fully
enforces its superior tax lien against the Lakeside
Property, Hunter argues, it will get more money. And
if the United States gets more money, Hunter will

App.7a
owe less in tax liability. But no court—not even those
adopting the broader cloud-interpretation—has ever
suggested that Congress waived immunity from actions
where a non-titleholding, non-lien-holding third party
sues to gain a derivative benefit. See Kabakjian v.
United States, 267 F.3d 208, 209-11 (3d Cir. 2001)
(allowing plaintiffs’ quiet title suit to proceed when
the plaintiffs alleged that they still owned the property
because a tax sale was invalid). Doing so would stretch
the waiver beyond any reasonable limit. Since courts
should interpret Congress’s waiver of sovereign
immunity narrowly, we decline to adopt such a broad
reading here. Lane v. Pena, 518 U.S. 187, 192 (1996).
Accordingly, sovereign immunity bars Hunter’s suit
against the United States. Since he alleged no independent claim against Sterling, the district court
appropriately dismissed the case as to both defendants.
As a last resort, Hunter contends that we should
equitably toll his right to redeem the Lakeside Property—thus giving him the legal interest he needs to
bring a quiet title action. He alleges that both the
government and Sterling secured his consent to dismiss
the first lawsuit without telling him that they would
subsequently enter into an agreement to sell the
Lakeside Property. Then Hunter says that they waited
until his redemption rights expired before bringing
an eviction action against him to effectuate that
agreement. But see Mich. Comp. Laws § 600.5714(1)(g)
(requiring a party to wait until redemption rights
have lapsed before filing an eviction action). Hunter
claims that this conduct amounts to a “fraud on the
court.” But Hunter never argued before the district
court that this conduct was fraudulent. Even making
that accusation for the first time now, he presents no

App.8a
facts backing it up. Thus, we decline to consider this
argument on appeal. See Knall Beverage, Inc. v.
Teamsters Local Union No. 293 Pension Plan, 744 F.3d
419, 424 (6th Cir. 2014) (“We do not address . . . arguments[] which were not fully presented to the district
court.”).
***
Because Hunter has not brought a quiet title action
under either the narrower title-interpretation or the
broader cloud-interpretation, the United States retains
immunity from his suit. Sovereign immunity deprives
this court of jurisdiction over claims against the government. Munaco v. United States, 522 F.3d 651, 65253 (6th Cir. 2008) (quoting United States v. Mitchell,
463 U.S. 206, 212 (1983)). Hunter has alleged no independent claims against Sterling.
We affirm.

App.9a
ORDER OF THE DISTRICT COURT
GRANTING DEFENDANTS’ JOINT MOTION
TO DISMISS THE COMPLAINT
(APRIL 30, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
CHARLES HUNTER,

Plaintiff,
v.
UNITED STATES OF AMERICA, ET AL.,

Defendants.

________________________
Case No. 17-13494
________________________

Before: Arthur J. TARNOW,
Senior U.S. District Judge.
On October 26, 2017, Plaintiff Charles Hunter
filed this action to quiet title pursuant to 28 U.S.C.
§ 2410(a)(1). Defendants, the Government and Sterling
Mortgage and Investment Co. (“Sterling”), filed the
instant Motion to Dismiss for lack of subject matter
jurisdiction on December 7, 2017. Plaintiff filed a
Response on December 26, 2017. Defendants filed a
Reply on January 9, 2018. On April 10, 2018, the
Court held a hearing on the Motion.

App.10a
Because Plaintiff no longer has a cognizable legal
interest in the subject property, he lacks standing to
bring this action under § 2410(a)(1). Without a waiver
of the Government’s sovereign immunity, the Court
does not have subject matter jurisdiction over this
case. For the reasons explained below, the Court
GRANTS Defendants’ Motion to Dismiss.
Factual Background
On September 30, 1999, Plaintiff received a
warranty deed for a residential property located at
1152 Lakeside Drive in Birmingham, Michigan
(“Lakeside Property”). On October 21, 2004, Plaintiff
executed a mortgage with Wells Fargo on the Lakeside
Property.
From 2006 to 2011, Plaintiff failed to pay his
federal taxes. In 2013 and 2015, the Internal Revenue
Service (“IRS”) recorded multiple liens on the Lakeside
Property for Plaintiff’s unpaid federal taxes.
Plaintiff also defaulted on his mortgage. On
April 11, 2017, Wells Fargo executed a non-judicial
foreclosure sale on the Lakeside Property. Wells Fargo
attempted to notify the IRS via certified mail of the
sale on March 16, 2017, but inadvertently sent the
notification to the wrong address.
At the foreclosure sale, Defendant Sterling purchased the Lakeside Property for $420,235.82. However, because the IRS did not receive proper notice of
the sale, the liens arising from Plaintiff’s tax liabilities
remained on the Lakeside Property after the sale to
Defendant Sterling.
On July 12, 2017, the Government brought an
action in this Court against Sterling and Mr. Hunter

App.11a
to enforce its tax liens on the Lakeside Property.

United States v. Sterling Mortgage & Investment Co.,
et al., No. 2:17-cv-12281 (E.D. Mich. 2017) (“Sterling

case”). At the time the Government filed the Sterling
case, Mr. Hunter’s statutory right to redeem the
Lakeside Property had not yet expired.
On September 18, 2017, the Government and
Sterling settled the Sterling case. According to the
settlement agreement, Sterling agreed to “sell the
Lakeside Property and provide the Government with
50-percent of the ‘net profits’ from the sale.” [Dkt. #8
at 7]. The Government agreed to “apply those funds
to Mr. Hunter’s unpaid federal tax debts.” Id. Mr.
Hunter was not part of settlement negotiations or the
ultimate agreement.
On October 11, 2017, Plaintiff’s redemption period
on the Lakeside Property expired.
On October 26, 2017, Plaintiff filed this action
pursuant to § 2410(a)(1). He asks the Court to enter
a declaratory judgment requiring the Government to
enforce its federal tax liens on the Lakeside Property
over any interest of Defendant Sterling.
Standard of Review
Defendants move to dismiss this action pursuant
to Fed. R. Civ. P. 12(b)(1) for lack of subject matter
jurisdiction. “Where subject matter jurisdiction is
challenged pursuant to 12(b)(1), the plaintiff has the
burden of proving jurisdiction in order to survive the
motion.” Mich. S. R.R. Co. v. Branch & St. Joseph
Cntys. Rail Users Ass’n., Inc., 287 F.3d 568, 573 (6th
Cir. 2002).

App.12a
Analysis
Defendants argue that the Court must dismiss this
case for lack of jurisdiction because Plaintiff has
failed to demonstrate a waiver of sovereign immunity.
“It is axiomatic that the United States may not be
sued without its consent and that the existence of
consent is a prerequisite for jurisdiction.” United States
v. Mitchell, 463 U.S. 206, 212 (1983). “Without a waiver
of sovereign immunity, a court is without subject
matter jurisdiction over claims against federal agencies
or officials in their official capacities.” Muniz-Muniz
v. U.S. Border Patrol, 741 F.3d 668, 671 (6th Cir.
2013). “[A] waiver of the Government’s sovereign
immunity will be strictly construed, in terms of its
scope, in favor of the sovereign.” Lane v. Pena, 518 U.S.
187, 192 (1996).
Section 2410 functions as a limited waiver of
sovereign immunity. Pollack v. United States, 819 F.
2d 144, 145 (6th Cir. 1987). Section 2410(a)(1) provides
that the United States may be named as “ . . . a party
in any civil action or suit . . . to quiet title to . . . real
or personal property on which the United States has
or claims a mortgage or other lien.”
The purpose of § 2410 is to afford lien-holders
the right to enforce their legal rights in a property:
28 U.S.C. § 2410 . . . gives a private lienor
the right to name the United States a party
in any action or suit to foreclose a mortgage
or lien or to quiet title to property on which
the United States claims any kind of mortgage or lien, whether or not a tax lien.

United States v. Brosnan, 363 U.S. 237, 244-45 (1960).

App.13a
Most courts have held that in order for a claimant
to bring an action under § 2410(a)(1), he must have a
cognizable legal interest in the subject property. See,
e.g., Little Italy Oceanside Inv. v. United States, No.
15-2081 (6th Cir. June 2, 2016) (holding that § 2410
provides no remedy where there is no dispute as to
who possesses clear title to the property); E.J. Friedman
Co., Inc. v. United States, 6 F.3d 1355, 1358 (9th Cir.
1993) (explaining that § 2410 does not permit a
claimant to bring an action to quiet title where he
has no property interest of his own in the property);
Raulerson v. United States, 786 F. 2d 1090, 1091-92
(11th Cir. 1986) (precluding suit under § 2410 where
the plaintiff sought a declaration that IRS’s claim
had priority over other interests, but where he no
longer had an interest of his own in the property);
but c.f., Kabakjian v. United States, 267 F.3d 208, 211
(3d Cir. 2001) (finding a waiver of sovereign immunity
pursuant to § 2410 where the plaintiffs alleged that
the Government failed to comply with 26 U.S.C.
§ 6335).
“Stated another way, ‘[s]tanding under [§ 2410]
is based on the presumption that the petitioner himself
is making a claim of ownership to the property for
which title is to be quieted.’” Little Italy Oceanside
Investments, LLC v. United States, No. 14-cv-10217,
2015 WL 4878247, at *5 (E.D. Mich. Aug. 14, 2015),
aff’d (June 2, 2016) (quoting Matter of Coppola, 810
F. Supp. 429, 432 (E.D.N.Y. 1992)).
It is undisputed that Plaintiff neither has a present legal interest in, nor makes a claim of ownership
to, the Lakeside Property. Nevertheless, Plaintiff
argues that he has standing to bring suit under
§ 2410(a)(1) because he has standing under Article

App.14a
III and the statute does not impose any additional
standing criteria.
Plaintiff’s standing argument is premised on his
claim of entitlement to reduced tax liability and to
reclaim title to the Lakeside Property via rescission
of the foreclosure sale. However, “[t]his argument
misses the effect of sovereign immunity. . . . [which]
deprives the courts of jurisdiction irrespective of the
merits of the underlying claim.” Koehler v. United
States, 153 F.3d 263, 267 (5th Cir. 1998). The Court
cannot find for Plaintiff on the merits and “then
reason backwards to find a waiver of sovereign
immunity.” Id. Because Plaintiff has no present legal
interest in the Lakeside Property, he lacks standing
to bring this action under § 2410(a)(1), and fails to
establish a waiver of the Government’s sovereign
immunity.
Finally, Defendants submit that without the Government as a party, Plaintiff cannot maintain this
action against Defendant Sterling alone. Plaintiff
does not contest this point. Although Plaintiff suggests
that the Court has jurisdiction over this action pursuant
to 28 U.S.C. § 1340,1 Plaintiff fails to assert any
independent claim against Defendant Sterling under
this statute.

1 Section 1340 “bestows on the federal district courts original
jurisdiction of any civil action arising under the internal revenue
laws.” Harrell v. U.S., 13 F.3d 232, 234 (7th Cir. 1993). The statute
typically applies in suits “rooted in the Internal Revenue Code.”

Grable & Sons Metal Products, Inc. v. Darue Engineering &
Manufacturing, 377 F.3d 592, 596 (6th Cir. 2004).

App.15a
Conclusion
Plaintiff lived at the Lakeside Property for years
without paying his federal taxes or mortgage. After
the foreclosure sale, Plaintiff had the opportunity to
exercise his right to redeem the Lakeside Property,
or file a lawsuit, on or before October 11, 2017. Plaintiff chose not to pursue those options. Instead, when
he no longer had any interest in the Lakeside Property, he filed this action requesting that the Court
order the Government to enforce its federal tax liens
and/or rescind the foreclosure sale.
That Plaintiff’s legal interest in the Lakeside
Property expired prior to filing this lawsuit is fatal to
his claims. In accordance with the need to construe
any waiver of sovereign immunity in the Government’s
favor, see Lane, 518 U.S. at 192, the Court finds that
Plaintiff has failed to meet his burden of demonstrating
a waiver under § 2410. Therefore, the Court must
dismiss this action against the Government. Because
Plaintiff has not alleged any independent claims against
the remaining defendant, the Court also dismisses
this action against Defendant Sterling.
Accordingly,
IT IS ORDERED that Defendants’ Motion to
Dismiss is GRANTED and this case is CLOSED.
SO ORDERED.
/s/ Arthur J. Tarnow
Senior United States District Judge
Dated: April 30, 2018

App.16a
RELEVANT STATUTORY PROVISION
24 U.S.C. § 2410
ACTIONS AFFECTING PROPERTY ON
WHICH UNITED STATES HAS LIEN
(a) Under the conditions prescribed in this
section and section 1444 of this title [28 U.S.C.
§ 1444] for the protection of the United States,
the United States may be named a party in any
civil action or suit in any district court, or in any
State court having jurisdiction of the subject
matter—
(1) to quiet title to,
(2) to foreclose a mortgage or other lien upon,
(3) to partition,
(4) to condemn, or
(5) of interpleader or in the nature of interpleader
with respect to,
real or personal property on which the United
States has or claims a mortgage or other lien.
(b) The complaint or pleading shall set forth
with particularity the nature of the interest or lien
of the United States. In actions or suits involving liens arising under the internal revenue laws,
the complaint or pleading shall include the name
and address of the taxpayer whose liability created
the lien and, if a notice of the tax lien was filed,
the identity of the internal revenue office which
filed the notice, and the date and place such notice
of lien was filed. In actions in the State courts
service upon the United States shall be made by

App.17a
serving the process of the court with a copy of
the complaint upon the United States attorney for
the district in which the action is brought or upon
an assistant United States attorney or clerical
employee designated by the United States attorney
in writing filed with the clerk of the court in which
the action is brought and by sending copies of the
process and complaint, by registered mail, or by
certified mail, to the Attorney General of the
United States at Washington, District of Columbia.
In such actions the United States may appear and
answer, plead or demur within sixty days after
such service or such further time as the court may
allow.
(c) A judgment or decree in such action or suit
shall have the same effect respecting the discharge
of the property from the mortgage or other lien
held by the United States as may be provided
with respect to such matters by the local law of
the place where the court is situated. However,
an action to foreclose a mortgage or other lien,
naming the United States as a party under this
section, must seek judicial sale. A sale to satisfy
a lien inferior to one of the United States shall
be made subject to and without disturbing the lien
of the United States, unless the United States
consents that the property may be sold free of its
lien and the proceeds divided as the parties may
be entitled. Where a sale of real estate is made to
satisfy a lien prior to that of the United States,
the United States shall have one year from the
date of sale within which to redeem, except that
with respect to a lien arising under the internal
revenue laws the period shall be 120 days or the

App.18a
period allowable for redemption under State law,
whichever is longer, and in any case in which,
under the provisions of section 505 of the
Housing Act of 1950, as amended (12 U.S.C.
1701k), and subsection (d) of section 1820 of title
38 of the United States Code, the right to redeem
does not arise, there shall be no right of redemption. In any case where the debt owing the
United States is due, the United States may ask,
by way of affirmative relief, for the foreclosure of
its own lien and where property is sold to satisfy a
first lien held by the United States, the United
States may bid at the sale such sum, not exceeding the amount of its claim with expenses of sale,
as may be directed by the head (or his delegate)
of the department or agency of the United States
which has charge of the administration of the
laws in respect to which the claim of the United
States arises. In any case where the United States
is a bidder at the judicial sale, it may credit the
amount determined to be due it against the amount
it bids at such sales.
(d) In any case in which the United States
redeems real property under this section or section
7425 of the Internal Revenue Code of 1954
[1986] [26 U.S.C. § 7425], the amount to be paid
for such property shall be the sum of—
(1) the actual amount paid by the purchaser at
such sale (which, in the case of a purchaser
who is the holder of the lien being foreclosed,
shall include the amount of the obligation
secured by such lien to the extent satisfied
by reason of such sale),

App.19a
(2) interest on the amount paid (as determined
under paragraph (1)) at 6 percent per annum
from the date of such sale, and
(3) the amount (if any) equal to the excess of (A)
the expenses necessarily incurred in connection with such property, over (B) the income
from such property plus (to the extent such
property is used by the purchaser) a reasonable rental value of such property.
(e) Whenever any person has a lien upon any
real or personal property, duly recorded in the
jurisdiction in which the property is located, and
a junior lien, other than a tax lien, in favor of the
United States attaches to such property, such
person may make a written request to the officer
charged with the administration of the laws in
respect of which the lien of the United States
arises, to have the same extinguished. If after
appropriate investigation, it appears to such officer
that the proceeds from the sale of the property
would be insufficient to wholly or partly satisfy
the lien of the United States, or that the claim of
the United States has been satisfied or by lapse of
time or otherwise has become unenforceable, such
officer may issue a certificate releasing the property from such lien.

App.20a
THE GOVERNMENT’S FIRST AMENDED
COMPLAINT (CASE NO. 17-CV-12281)
(JULY 14, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
MICHIGAN SOUTHERN DIVISION
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
STERLING MORTGAGE & INVESTMENT CO.;
CHARLES R. HUNTER; THE STATE OF
MICHIGAN; and, OAKLAND COUNTY
TREASURER IN THE STATE OF MICHIGAN,

Defendants.

________________________

Case No. 17-cv-12281-AJT-SDD
Before: Hon. Arthur J. TARNOW
The United States of America, at the direction of
a delegate of the Attorney General and the authorization and request of the Secretary of the Treasury
pursuant to 26 U.S.C. § 7401, brings this civil action
to enforce its federal tax liens against the real property located at 1152 Lakeside Dr., Birmingham, MI
48009. In support of this action, the United States
alleges:

App.21a
JURISDICTION AND PARTIES
1. Jurisdiction over this action is conferred upon
this Court under 28 U.S.C. §§ 1331, 1340, and 1345,
as well as 26 U.S.C. §§ 7402 and 7403.
2. The defendant Sterling Mortgage & Investment
Co., is a Michigan corporation and is named as a
defendant in this action pursuant to 26 U.S.C. § 7403(b)
because it may claim an interest in the real property
upon which the United States seeks to enforce its
federal tax liens.
3. The defendant Charles R. Hunter is named as
a defendant in this action pursuant to 26 U.S.C.
§ 7403(b) because he may claim a right of redemption
in the real property upon which the United States
seeks to enforce its federal tax liens. (This action does
not seek a personal judgment against Mr. Hunter.)
4. The defendant State of Michigan is named as a
defendant in this action pursuant to 26 U.S.C. § 7403(b)
because it may claim an interest in the real property
upon which the United States seeks to enforce its federal tax liens.
5. The defendant Oakland County Treasurer in the
State of Michigan is named as a defendant in this
action pursuant to 26 U.S.C. § 7403(b) because he
may claim an interest in the real property upon which
the United States seeks to enforce its federal tax
liens and because the United States seeks a sale of
the real property free of any local real property tax
liens that may arise during this suit.

App.22a
LAKESIDE PROPERTY SOLD AT
NONJUDICIAL FORECLOSURE SALE
6. The Oakland County Sherriff’s Office conducted
a nonjudicial foreclosure sale, on or about April 11,
2017, for the real property located at 1152 Lakeside
Dr., Birmingham, MI 48009, Tax ID No. 19-26-279-009,
which is the lands and tenements situated in the City
of Birmingham, Oakland County, Michigan, and is more
particularly described as:
Lot 61, “Quarton Lake Estates Replat of East
Part of Quarton Lake Estates Subdivision”
as recorded in Liber 38, Page 24 and 24a of
Plats, Oakland County Records.
(Hereinafter referred to as the “Lakeside Property.”)
7. The Lakeside Property was subject to the foreclosure sale because the defendant Charles R. Hunter
and Sonja A. Hunter (who is not named as a defendant) had defaulted on their mortgage held by Wells
Fargo Financial America, Inc. Mr. Hunter and Ms.
Hunter had executed a mortgage in favor of Wells
Fargo Financial America, Inc., on or about October
21, 2004, which was secured by the Lakeside Property;
the Mortgage was recorded with the Oakland County
Register of Deeds on November 15, 2004 at Liber 34418,
Page 363.
8. Mr. Hunter had received his interest in the
Lakeside Property by a Warranty Deed dated September 30, 1999, which was recorded with the Oakland
County Register of Deeds on October 21, 1999 at
Liber 20698, Page 258. By the Warranty Deed, Alan
M. Stillman and Dona L. Lakritz, husband and wife,
conveyed their interest in the Lakeside Property to

App.23a
“Charles R. Hunter, a single man” in consideration of
$538,000.
9. The defendant Sterling Mortgage & Investment
Co. purchased the Lakeside Property for $420,235.82
at the nonjudicial foreclosure sale held on April 11,
2017. By a Sheriff’s Deed on Mortgage Foreclose dated
April 11, 2017, which was recorded with the Oakland
County Register of Deeds on April 26, 2017, in Liber
50608, Page 385, the Lakeside Property was transferred
to Sterling Mortgage & Investment Co., subject to a
redemption period. Although redemption may be in Mr.
Hunter’s interest (the value of the property according
to Zillow.com is approximately $737,000), on information and belief, Hunter is not likely to be able to
raise the funds to redeem.
FEDERAL TAX LIENS ON LAKESIDE PROPERTY
10. At the time of the nonjudicial foreclosure
sale, the United States had federal tax liens on the
Lakeside Property because of the unpaid federal income
tax liabilities of Mr. Hunter.
11. For the tax periods set forth in the table
below, a delegate of the Secretary of the Treasury
made federal income tax assessments against Mr.
Hunter, in the following amounts, which have balances
due after accounting for all costs, fees, accruals,
payments, credits, and abatements, as of July 1, 2017:

App.24a
Tax
Amount
Assessed

Balance
Due as of
07/01/2017

Tax Period

Assessment
Date

2006

05/23/2011

$105,763.00 $62,798.59

2007

05/23/2011

$105,466.00 $168,386.13

2008

05/23/2011

$111,093.00 $177,524.09

2009

11/25/2013

$122,807.00 $190,059.94

2010

11/25/2013

$109,547.00 $164,695.05

2011

06/22/2015

$107,465.00 $153,294.33

12. A delegate of the Secretary of the Treasury
gave notice of the unpaid tax liabilities described in
paragraph 11, above, to Mr. Hunter, and made demand
for payment upon the same.
13. Despite notice of the liabilities listed in
paragraph 11, above, and demand for their payment,
Mr. Hunter failed, neglected, or refused to fully pay
the liabilities, and there remains an unpaid balance
on those liabilities as indicated in paragraph 11, above.
14. The failure, neglect, or refusal of Mr. Hunter
to pay the taxes assessed against him, following notices
of the tax assessments and the demands for payment
of the same, gave rise, as of the dates of the tax assessments, to liens in favor of the United States, pursuant to 26 U.S.C. §§ 6321 and 6322, upon all property
and rights to property of Mr. Hunter, including the
Lakeside Property, in an amount equal to the unpaid
tax liabilities, plus statutory accruals.
15. A Notice of Federal Tax Lien against Mr.
Hunter for his unpaid income tax liabilities for the
tax years 2006, 2007, and 2008, was recorded with

App.25a
the Oakland County Register on October 23, 2013 at
Liber 46464, Page 183.
16. A Notice of Federal Tax Lien against Mr.
Hunter for his unpaid income tax liabilities for the
tax years 2009 and 2010 was recorded with the Oakland
County Register of Deeds on December 26, 2013 at
Liber 46659, Page 500.
17. A Notice of Federal Tax Lien against Mr.
Hunter for his unpaid income tax liabilities for the
tax year 2011 was recorded with the Oakland County
Register of Deeds on July 21, 2015 at Liber 48414,
Page 311.
NOTICE OF THE NONJUDICIAL
FORECLOSURE SALE NOT GIVEN TO THE IRS
18. The federal tax liens arising from Mr.
Hunter’s income tax liabilities identified in paragraph
11, above, remain on the Lakeside Property despite
the nonjudicial foreclosure sale.
19. Section 7425(b) of the Internal Revenue Code
(26 U.S.C.) provides that real property sold at a
nonjudicial foreclosure sale remains subject to a federal tax lien “if notice of such lien was filed . . . more
than 30 days before such sale and the United States
is not given notice of such sale in the manner prescribed
in subsection(c)(1).” To satisfy the notice requirements
under 26 U.S.C. § 7425(c)(1), notice of the sale must
be given to the IRS “in writing, by registered or
certified mail or by personal service, not less than 25
days prior to such sale. . . . ”
20. Here, Wells Fargo Financial America, Inc., the
mortgagee that scheduled the nonjudicial foreclosure
sale of the Lakeside Property, tried to notify the IRS

App.26a
of the sale by sending a letter dated March 16, 2017.
The letter was addressed to:
IRS Technical Services Advisory
985 Michigan Avenue, Tenth Floor
Detroit, MI 48226
The letter was sent via certified mail. The tracking
number for the certified mail was 92148900001786000001915151.
21. The letter was not delivered to the IRS. The
“USPS Tracking Results” for tracking number
92148900001786000001915151 show that the letter is
still “In-Transit.” According to the “USPS Tracking
Results,” the letter arrived at the USPS Facility in
Pontiac, Michigan, on March 16, 2017, and the expected
delivery day was Saturday, March 18, 2017, but the
last status indicates “[t]he item is currently in
transit to the destination.”
22. Upon information and belief, Wells Fargo
Financial America, Inc. did not receive a return-receipt
indicating that the letter was delivered to the IRS.
23. In addition, IRS Technical Services Advisory
in Detroit, to whom the letter was addressed, does not
have any record of receiving the letter.
24. To the extent that there was a rebuttable
presumption that sending the letter via certified mail
resulted in delivery to the IRS, see 26 C.F.R.
§ 301.74253(a)(1), 26 U.S.C. § 7502(c)(1)-(2), and 26
C.F.R. § 301.7502-1(e)(2), any such presumption is
rebutted by the fact that the certified mail tracking
number shows that the letter was not delivered and
that the responsible IRS office has no record of receiving
the letter.

App.27a
25. Moreover, Wells Fargo Financial America,
Inc. did not correctly address the letter. It was required to send the letter to:
IRS Advisory Group
985 Michigan Avenue, Stop 47
Detroit, MI 48226

See 26 C.F.R. § 301.7425-3(a)(1); IRS Publication 786,
Notice of Nonjudicial Sale of Property and Application for Consent to Sale; IRS Publication 4325 (Rev.
10-2016), Collection Advisory Group Numbers and
Addresses (identifying the relevant “IRS Advisory
Group” address for Michigan “985 Michigan Ave., Stop
47, Detroit, MI 48226”) (emphasis added). Instead,
Wells Fargo Financial America, Inc. addressed the
letter to “IRS Technical Services Advisory” at 985,
Michigan Ave., “Tenth Floor.” See 26 C.F.R. § 301.74253(a)(1) (“Under this section, a notice of sale is not
effective if it is given to an office other than the office
listed in the relevant publication”).

26. Although the letter was not sent until the
26th day before the nonjudicial sale, the United States
does not dispute that the notice would have been timely
if it had actually been delivered to the correct office;
the implementing Treasury regulation, 26 C.F.R.
§ 301.7425-3(a)(1), allows the mailing date to be
treated as the date of delivery.
27. In the absence of a mailing return receipt
signed by an IRS employee, Wells Fargo Financial
America, Inc. should have verified that the letter providing notice of the sale was actually given to the IRS
before going forward with the nonjudicial foreclosure
sale of the Lakeside Property. Wells Fargo Financial
America, Inc. could have simply checked the “USPS

App.28a
Tracking Results” and verified that the letter had not
been delivered to the IRS. In addition, the implementing Treasury regulation regarding the delivery
of notice—26 C.F.R. § 301.7425-3(d)(3)—provides an
explicit mechanism for parties using a nonjudicial
foreclosure sale to have the IRS acknowledge that it
received the required notice. The regulation states,
“[i]f a notice of sale . . . is submitted in duplicate to the
IRS with a written request that receipt of the notice
be acknowledged and returned to the person giving
the notice, this request will be honored by the IRS.”
See 26 C.F.R. § 301.7425-3(d)(3).
28. Because the letter meant to notify the IRS of
the nonjudicial foreclosure sale was not actually
given to the IRS, the IRS was not properly notified of
the sale of the Lakeside Property. Accordingly, the
United States’ federal tax liens identified in paragraph
11, above, remain on the Lakeside Property under 26
U.S.C. § 7425(b).
29. Pursuant to 26 U.S.C. § 7403, the United
States is entitled to enforce its liens upon the Lakeside
Property, to have that property sold at a judicial sale,
free and clear of all rights, titles, claims, and interests of the parties, including any rights of redemption,
and to have the proceeds distributed, after the payment of the cost of sale and real estate taxes due and
owning, to the United States and other parties in
accordance with the law. The United States may elect
to seek the appointment of a local real estate agent as
a receiver to sell the Lakeside Property at full market
value pursuant to 26 U.S.C. § 7403(d).
Wherefore, the United States requests the following relief:

App.29a
A. Judgment in favor of the United States declaring that it has valid and subsisting tax liens on the
Lakeside Property;
B. Judgment in favor of the United States
enforcing the federal tax liens against the Lakeside
Property, and ordering the Lakeside Property to be
sold, according to law, free and clear of all rights,
titles, claims, and interest of the parties to this case,
including any rights of redemption, with the net proceeds of the sale, after the payment of the costs of
sale and any real estate taxes due and owning as permitted by 26 U.S.C. § 6323(b)(6), to be distributed
among the parties in accordance with their lawful
priorities;
C. Judgment that, if the defendant Sterling
Mortgage & Investment Co., fails to appear and prove
a right, title, claim, lien, or interest in the Lakeside
Property, said defendant has no right, title, claim,
lien, or interest in the Lakeside Property;
D. Judgment that, if the defendant Charles R.
Hunter, fails to appear and prove a right, title, claim,
lien, or interest in the Lakeside Property, said
defendant has no right, title, claim, lien, or interest
in the Lakeside Property;
E. Judgment that, if the defendant State of
Michigan, fails to appear and prove a right, title,
claim, lien, or interest in the Lakeside Property, said
defendant has no right, title, claim, lien, or interest
in the Lakeside Property;
F. Any other and further relief that the Court
deems just and proper, including the United States’
costs.

App.30a
Respectfully submitted,
David A. Hubbert
Acting Assistant Attorney General
Tax Division, U.S. Department of
Justice
/s/ Carl L. Moore
Carl L. Moore
Trial Attorney, Tax Division
U.S. Department of Justice
P.O. Box 55
Washington, D.C. 20044
202-307-5892 (v) / 202-514-5238 (f)
Carl.L.Moore@usdoj.gov
Daniel L. Lemisch
Acting United States Attorney
Peter A. Caplan (P30643)
Assistant U.S. Attorney
211 W. Fort Street, Ste. 2001
Detroit, MI 48226
(313)226-9784
peter.caplan@usdoj.gov

App.31a
HUNTER’S COMPLAINT (CASE NO. 17-CV-13494)
(OCTOBER 26, 2017)
UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN SOUTHERN DIVISION
________________________
CHARLES R. HUNTER,

Plaintiff,
v.
UNITED STATES OF AMERICA,
DEPARTMENT OF TREASURY, INTERNAL
REVENUE SERVICE, and STERLING MORTGAGE
& INVESTMENT COMPANY,

Defendants.

________________________
Case No. 17-cv-13494

Plaintiff Charles R. Hunter (“Plaintiff”), by and
through his counsel, ABRAHAM & ROSE, P.L.C., for
his complaint against the above-named Defendants,
alleges the following:
PARTIES
1. Plaintiff is a legal resident of Oakland County,
Michigan.
2. Defendant the United States of America is
specifically acting through the Department of Treasury,

App.32a
and the Internal Revenue Service (“IRS”) (collectively,
the “Government”).
3. Defendant Sterling Mortgage & Investment
Company (“Sterling”) is a Michigan domestic corporation with an office located in Farmington Hills,
Michigan.
JURISDICTION AND VENUE
4. The basis of the Court’s jurisdiction is 28
U.S.C. §§ 1331 and 1340.
5. The Government consented to suit in this action
pursuant to 28 U.S.C. § 2410(a)(1).
6. Venue is appropriate in this district pursuant
to 28 U.S.C. § 1391.
FACTUAL BACKGROUND
A.

The Federal Tax Liens

7. Plaintiff owns residential property located at
1152 Lakeside Drive in Birmingham, Michigan (the
“Lakeside Property”).
8. On or about September 26, 2013, the Government–acting through Revenue Officer Wesley Smith
in the IRS’s Pontiac, Michigan office–filed a Notice of
Federal Tax Lien (“NFTL”) purporting to attach to
all Plaintiff’s “property and rights to property.”
9. The following particulars are encompassed in
the NFTL referenced above:
a.

The NFTL purports to be a general “lien in
favor of the United States on all property
and rights to property” belonging to Plaintiff,
with the face value (as of its filing date) of

App.33a
$480,891.76, plus continuing interest and
penalties, for tax years 2006, 2007, and 2008;
b.

The NFTL lists Plaintiff as the “Taxpayer”
and his residence as the Lakeside Property;

c.

The NFTL was signed by Revenue Officer
Wesley Smith in Pontiac, Michigan, prepared
by the IRS in Detroit, Michigan and filed by
the IRS in the Oakland County Register of
Deeds located in Pontiac, Michigan.

10. On or about December 11, 2013, the Government–acting through Revenue Officer Wesley Smith
in the IRS’s Pontiac, Michigan office–filed a NFTL
purporting to attach to all Plaintiff’s “property and
rights to property.”
11. The following particulars are encompassed
in the NFTL referenced above:
a.

The NFTL purports to be a general “lien in
favor of the United States on all property
and rights to property” belonging to Plaintiff,
with the face value (as of its filing date) of
$364,566.93, plus continuing interest and
penalties, for tax years 2009 and 2010;

b.

The NFTL lists Plaintiff as the “Taxpayer”
and his residence as the Lakeside Property;

c.

The NFTL was signed by Revenue Officer
Wesley Smith in Pontiac, Michigan, prepared
by the IRS in Detroit, Michigan, and filed
by the IRS in the Oakland County Register
of Deeds located in Pontiac, Michigan.

12. On or about July 14, 2015, the Government–
acting through Revenue Officer Wesley Smith in the

App.34a
IRS’s Pontiac, Michigan office–filed a NFTL purporting
to attach to all Plaintiff’s “property and rights to
property.”
13. The following particulars are encompassed
in the NFTL referenced above:

B.

a.

The NFTL purports to be a general “lien in
favor of the United States on all property
and rights to property” belonging to Plaintiff,
with the face value (as of its filing date) of
$14,657.87, plus continuing interest and
penalties, for the tax year 2011;

b.

The NFTL lists Plaintiff as the “Taxpayer”
and his residence as the Lakeside Property;

c.

The NFTL was signed by Revenue Officer
Wesley Smith in Pontiac, Michigan, prepared
by the IRS in Detroit, Michigan and filed by
the Internal Revenue Service in the Oakland
County Register of Deeds located in Pontiac,
Michigan.

The Lakeside Property Is Sold At a Nonjudicial
Foreclosure Sale

14. Plaintiff received a warranty deed for the
Lakeside Property dated September 30, 1999, which
was recorded in the Oakland County Register of Deeds
on October 21, 1999 at Liber 20698, Page 258. The
warranty deed indicates that Plaintiff purchased the
Lakeside Property for $538,000.
15. Plaintiff and his wife executed a mortgage
in favor of Wells Fargo Financial America, Inc. (“Wells
Fargo”), on or about October 21, 2004. The mortgage
was secured by the Lakeside Property and recorded

App.35a
in the Oakland County Register of Deeds on November
15, 2004 at Liber 34418, Page 363.
16. Wells Fargo commenced foreclosure proceedings after Plaintiff defaulted on the mortgage. The
Oakland County Sheriff’s Office conducted a nonjudicial foreclosure sale on April 11, 2017.
17. Sterling purchased the Lakeside Property
at the sale for $420,235.82. The sheriff’s deed dated
April 11, 2017, was recorded in the Oakland County
Register of Deeds on April 26, 2017 at Liber 50608,
Page 385. Upon information and belief, Plaintiff’s
time to redeem the property expired on October 11,
2017. See Mich. Comp. Laws § 600.3240(8).
C.

Failure to Notify the IRS About the Nonjudicial
Foreclosure Sale

18. The federal tax liens arising from Plaintiff’s
tax liabilities remain on the Lakeside Property
despite the nonjudicial foreclosure sale.
19. 26 U.S.C. § 7425(b) provides that real property
sold at a nonjudicial foreclosure sale remains subject
to any federal tax lien “if notice of such lien was
filed . . . more than 30 days before such sale and the
United States is not given notice of such sale in the
manner prescribed in subsection (c)(1).”
20. To satisfy the notice requirements under 26
U.S.C. § 7425(c)(1), notice of the sale must be given
to the IRS “in writing, by registered or certified mail
or by personal service, not less than 25 days prior to
such sale . . . ”
21. In this case, Wells Fargo scheduled the nonjudicial foreclosure sale and attempted to notify the

App.36a
IRS in a letter dated March 16, 2017. Wells Fargo
sent the letter certified mail through the United
States Postal Service (“USPS”) and addressed it to:
IRS Technical Services Advisory
985 Michigan Avenue, Tenth Floor Detroit,
MI 48226
(Emphasis added).
22. The Government claims that the IRS never
received the letter. The USPS tracking number
(92148900001786000001915151) indicates that the
letter remains “In-Transit.” It arrived at the USPS
facility in Pontiac, Michigan on March 16, 2017, and
its expected delivery date was March 18, 2017. The
letter’s most recent status shows “[t]he item is currently
in transit to the destination.”
23. Upon information and belief, Wells Fargo
did not receive a return receipt request card verifying
delivery of the March 16, 2017 letter to the IRS. Nor
does the IRS Technical Services Advisory Group have
any record of receiving the letter.
24. Although there is typically a rebuttable presumption of delivery when sending communications to
the IRS through certified mail, see 26 U.S.C. § 7502
(c)(1)-(2); 26 C.F.R. §§ 301. 7502-1(e)(2), 301.7425-3
(a)(1), this presumption is rebutted by the USPS tracking system, which shows that USPS never delivered
the letter to the appropriate IRS office.
25. This conclusion is further bolstered by Wells
Fargo’s failure to correctly address the letter to:
IRS Advisory Group
985 Michigan Avenue, Stop 47
Detroit, MI 48226

App.37a
(Emphasis added). See 26 C.F.R. § 301.7425-3(a)(1);
IRS Publication 786, Notice of Nonjudicial Sale of
Property and Application for Consent to Sale; IRS
Publication 4325 (Rev. 10-2016), Collection Advisory
Group Numbers and Addresses (identifying the proper
“IRS Advisory Group” address for Michigan as “985
Michigan Ave., Stop 47, Detroit, MI 48226”).
26. Wells Fargo instead addressed the letter to
“IRS Technical Services Advisory” at “985 Michigan
Ave., Tenth Floor.” See 26 C.F.R. § 301.7425-3(a)(1)
(“Under this section, a notice of sale is not effective if
it is given to an office other than the office listed in
the relevant publication”).
27. Without a return request receipt card signed
by an IRS employee, Wells Fargo should have verified
that the IRS received the March 16, 2017 letter before
proceeding with the nonjudicial foreclosure sale.
28. This is especially true since Wells Fargo did
not avail itself of the procedure outlined in 26 C.F.R.
§ 301.7425-3(d)(3), providing that “[i]f notice of
sale . . . is submitted in duplicate to the IRS with a
written request that receipt of the notice be acknowledged and returned to the person giving the notice,
this request will be honored by the IRS.” Id.
D.

The Government’s Prior Lawsuit

29. On July 12, 2017, the Government filed suit
in the United States District Court for the Eastern
District of Michigan seeking to foreclose on its tax
lien and force the judicial sale of the Lakeside Property
free and clear of whatever interest, if any, Sterling
may have obtained. The complaint named Plaintiff and
Sterling, among others, as party defendants. (United

App.38a

States v. Sterling Mortgage & Investment Co., et al.,

Case No. 17-cv-12281, Compl., D.E. 1).

30. The Government asserted that “[b]ecause the
[March 16, 2017] letter meant to notify the IRS of the
nonjudicial foreclosure sale was not actually given to
the IRS, the IRS was not properly notified of the sale
of the Lakeside Property” and the federal tax liens
remained attached to the Lakeside Property despite
any interest Sterling may have obtained. (Id., Amend.
Compl., D.E. 2 at ¶ 28).
31. The parties eventually stipulated to the
voluntary dismissal of this prior action without
prejudice. (Id., Order Regarding Stipulation of Dismissal
Without Prejudice, D.E. 16).
32. Plaintiff currently adopts the same position
the Government advanced in the earlier proceeding
as the central basis for this lawsuit.
COUNT I–QUIET TITLE
(28 U.S.C. § 2410(A)(1))
33. Plaintiff restates and incorporates by
reference each and every allegation set forth above.
34. Since the IRS alleges that it never received
the March 16, 2017 letter, the federal tax liens remain
attached to the Lakeside Property and have priority
over any interest Sterling obtained at the foreclosure
sale.
35. Accordingly, the Court should require the
Government to enforce the federal tax liens on the
Lakeside Property and have the property sold either
(1) through a receiver for fair market value, or (2) at
a judicial sale, free and clear of any and all rights,

App.39a
titles, claims, and interests of Sterling, and to have
the proceeds distributed, after the payment of the
costs of sale and real estate taxes due and owing, to
the Government and other parties in accordance with
the law.
REQUESTED RELIEF
In view of the foregoing, Plaintiff respectfully
requests that this Court:
A.

Enter declaratory judgment that the federal
tax liens have priority over any interest
Sterling may have in the Lakeside Property;
and

B.

Order the Government to enforce the
federal tax liens on the Lakeside Property
and have the property sold either (1) through
a receiver for fair market value, or (2) at a
judicial sale, free and clear of any and all
rights, titles, claims, and interests of Sterling,
and to have the proceeds distributed, after the
payment of the costs of sale and real estate
taxes due and owing, to the Government
and other parties in accordance with the
law; and

C.

Grant such other relief as this Court deems
just and appropriate.
JURY DEMAND

Plaintiff respectfully requests a trial by jury on
all matters before the Court to the extent allowed by
law.

App.40a
Respectfully submitted,
/s/ Jerry R. Abraham
Jerry R. Abraham (P45768)
Daniel W. Weininger (P75865)
Abraham & Rose, P.L.C.
30500 Northwestern Highway,
Ste. 410
Farmington Hills, MI 48334
(248) 539-5040
info@abrahamandrose.com

Counsel for Plaintiff
Dated: October 26, 2017

App.41a
DEFENDANTS’ JOINT MOTION TO DISMISS THE
COMPLAINT—RELEVANT EXCERPTS
(DECEMBER 7, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
MICHIGAN SOUTHERN DIVISION
________________________
CHARLES R. HUNTER,

Plaintiff,
v.
UNITED STATES OF AMERICA,
DEPARTMENT OF TREASURY,
INTERNAL REVENUE SERVICE, and STERLING
MORTGAGE & INVESTMENT CO.,

Defendants.

________________________
Case No. 17-cv-13494

Before: Hon. Arthur J. TARNOW
THE DEFENDANTS, United States of America,
improperly named and sued as the “United States of
America, Department of Treasury, Internal Revenue
Service,” and Sterling Mortgage & Investment Co.
(“Sterling Mortgage”), jointly move this Court, pursuant
to Fed. R. Civ. P. 12(b)(1), to dismiss this case because
the Court lacks jurisdiction over the action brought
by the plaintiff Charles R. Hunter. Mr. Hunter cannot
show a waiver of sovereign immunity in this action

App.42a
against the government in which he seeks to have
the Court order the United States to enforce a federal
tax lien against property he no longer owns because
(1) he does not have standing to bring an action
under 28 U.S.C. § 2410(a)(1) to quiet title, and . . . .
[...]
. . . pursuant to Section 7425(d)(1) of the Internal
Revenue Code.” See United States v. Sterling Mortgage
& Investment Co., et al., Case No. 2:17-cv-12281-AJTSDD, Docket No. 11, ¶ 32.
The government’s prior suit was voluntarily dismissed by agreement of the parties. See Compl., ¶ 31.
While the reason for the dismissal is not stated in the
filed stipulation, the government had entered into a
settlement agreement with Sterling Mortgage. The
settlement agreement between the government and
Sterling Mortgage calls for Sterling Mortgage to sell
the Lakeside Property and provide the government with
50-percent of the “net profits” from the sale. The government will then apply those funds to Mr. Hunter’s
unpaid federal tax debts.
As Mr. Hunter’s complaint observes, the government’s complaint against Sterling Mortgage asserted
that United States Postal Service never delivered the
notice to the IRS as required by 26 U.S.C. § 7425. See
Compl., ¶¶ 21-22. But there is also no dispute that it
was timely mailed and complied with the requirement to be sent by certified mail. The parties settled
the action because there is no controlling precedent
on the effectiveness of a notice that is timely mailed
in compliance with the statute but is possibly lost in
transit. In addition, Sterling Mortgage maintained
that it could unwind the sale if necessary, in which

App.43a
event, a second sale would not necessarily result in
any recovery for the IRS.
[...]
1. Mr. Hunter Does Not Have an Interest
in the Lakeside Property
Mr. Hunter cannot maintain this quiet title action
under 28 U.S.C. § 2410(a)(1) because he, by his own
admission, no longer has a legal interest in the Lakeside
Property, and therefore, does not have standing to
bring a suit for quiet title.2 See, e.g., Little Italy
Oceanside Investments, LLC v. United States, 2015
WL 4878247, at *5 (E.D. Mich. Aug. 14, 2015); also
United States v. Woolley, 2003 WL 21790346, at *1
(D. Neb. June 12, 2003) (collecting cases). Whether a
party has standing is determined by that party’s interests at the time the complaint was filed. See Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs., Inc., 528 U.S.
167, 180 (2000).3
A party without a legal interest in property has no
standing to bring a quiet title claim. See Pearson v.
Dodd, 429 U.S. 396, 398 (1977); also Mich. Comp. Laws
2 We are not suggesting that Mr. Hunter lacks Article III standing. He would presumably benefit economically—that is, reap a
windfall—if the government were to enforce the tax liens against
the Lakeside Property, assuming it would prevail. But that is
outside the scope of § 2410 under its plain language, putting aside
that any ambiguity in a statutory waiver of sovereign immunity
must be resolved against jurisdiction.
3 “No principle is more fundamental to the judiciary’s proper
role in our system of government than the constitutional limitation of federal court jurisdiction to actual cases or controversies.”
Simon v. E. Ky. Welfare Rights Org., 426 U.S. 26, 37 (1976). “The
concept of standing is part of this limitation.” Id.

App.44a
Ann. § 600.2932(1); MCR 3.411(B) Thus, parties that
do not assert an ownership or lien interest in property
cannot seek to quiet title to that property . . . .
[...]
For the above-mentioned reasons, the Court should
dismiss this case.
For The United States of America,
Defendant
/s/ Carl L. Moore
Carl L. Moore
Trial Attorney, Tax Division
U.S. Department of Justice
P.O. Box 55
Washington, D.C. 20044
202-307-5892 (v)
Carl.L.Moore@usdoj.gov
For Sterling Mortgage & Investment
Co., Defendant
/s/ (with consent) Bruce M. Gorosh
Bruce M. Gorosh (P35455)
Finkel Whitefield Selik
32300 Northwestern Hwy.,
Suite 22
Farmington Hills, MI 48334
(248) 855-6500
bgorosh@fwslaw.com

App.45a
TRANSCRIPT OF MOTION HEARING
(APRIL 10, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
CHARLES R. HUNTER,

Plaintiff,
v.
UNITED STATES OF AMERICA and STERLING
MORTGAGE AND INVESTMENT COMPANY,

Defendants.

________________________
No. 17-13494

Before: Hon. Arthur J. TARNOW,
Senior United State District Judge.

[April 10, 2018 Transcript, p. 3]
THE COURT CLERK: Calling case 17-13494 Charles
Hunter versus United States of America versus
Department of the Treasury et al. Will counsel
please state their appearances for the record?
MR. WEININGER: Your Honor, Dan Weininger for the
Plaintiff Charles Hunter.
MR. MOORE: Good morning, your Honor. Carl Moore
for the United States.

App.46a
THE COURT: Please use the microphone. Start over.
MR. WEININGER: Dan Weininger on behalf of Plaintiff Charles Hunter.
THE COURT: Okay.
MR. MOORE: Carl Moore for the United States, your
Honor.
MR. GOROSH: Good morning, your Honor. Bruce
Gorosh on behalf of Defendant Sterling Investment.
THE COURT: Okay. Whose motion is it?
MR. MOORE: It’s the defendant’s motion, your Honor.
It’s the United States who will start, if that’s
okay.
THE COURT: You may.
MR. MOORE: Thank you, your Honor. In this case the
plaintiff is trying to force the United States to do
what he failed to do on his own. He could have
sold the lakeside property to pay down his tax
debts but he decided not to do so. Rather, he
stayed in the lakeside property, failed to pay his
mortgage, and then he allowed the foreclosure of
the lakeside property. It’s outrageous that the
plaintiff is now trying to force the United States
to enforce its tax liens when he so casually
ignored his tax debts before.
THE COURT: How much were the tax liens total? I
know there are more than one.
MR. MOORE: Yes, your Honor. Well, the way this
case kind came up, there were—it only mattered
what tax liens we filed a notice of federal tax
liens for. Those were somewhere in the range of,

App.47a
I want to say $700,000. There is more federal tax
liens out there that would—for debts that he owes
that are over a million dollars, I believe.
Of course, the plaintiff cannot maintain the suit
against the United States because of sovereign
immunity. There are two primary interrelated
reasons that the plaintiff cannot maintain an
action under 2410. He can’t maintain a quiet title
action with respect to the lakeside property because
he doesn’t currently have an interest in the
lakeside property.
THE COURT: Okay. I got that from your brief. I
want to hear the plaintiff’s response to that one
point and you will have a chance to do the rest of
your argument.
MR. MOORE: Understood, your Honor.
MR. WEININGER: Do you want me to approach the
podium?
THE COURT: Use you the microphone. Approach the
podium.
MR. WEININGER: Your Honor, Dan Weininger for the
Plaintiff Charles Hunter. Our position is we don’t
need a current interest. All that you need in this
case and particularly looking at the language of
2410 is a lien priority dispute, that is number
one, involving a lien—
THE COURT: But there is no lien.
MR. WEININGER: There is a federal tax lien on the
property?
THE COURT: It’s been settled.

App.48a
MR. WEININGER: Well, it’s still there now because
the Government was not given appropriate notice
under the statute. And the code says—
THE COURT: I thought—and maybe the attorney for
Sterling Investments could clear this up—but I
thought those two parties reached an agreement
on how to resolve the liens.
MR. WEININGER: They did. And I don’t want to get
too far into the merit of the propriety of that—
THE COURT: Well, you can ignore the order to the
extent that I’m hearing it.
MR. WEININGER: Okay. With your permission. Our
position is that that agreement—
THE COURT: Let me finish the line of questioning.
MR. WEININGER: Sure.
THE COURT: They reach an agreement on the liens,
how to resolve it. Have they sold property?
MR. WEININGER: To my knowledge, Sterling has not.
THE COURT: Sterling?
MR. GOROSH: Should I approach or speak from here,
your Honor?
THE COURT: Use the microphone from either place.
MR. GOROSH: We have not—we can’t because of the
pending lawsuit.
THE COURT: Okay. All right. That answers my
question. But what is the lien—what is the
remedy? Let’s ignore my order.
MR. WEININGER: Okay.
THE COURT: What is the remedy you ultimately want?

App.49a
MR. WEININGER: We would ask the Court for two
remedies and you can choose either one. One is
you would compel the Government under the
Declaratory Judgment Act to foreclose their lien
which still exists.
THE COURT: How much is the property worth,
forgetting the liens.
MR. WEININGER: According to the Government’s own
estimates from the prior lawsuit before your Honor,
the amount is somewhere hovering around
$737,000.
THE COURT: That is the amount of the lien, too,
though.
MR. WEININGER: No. No. The liens are worth a lot
more. The liens and the property—put it this way.
The face value—
THE COURT: Stop.
MR. WEININGER: Sure.
THE COURT: I have a pen and pencil but I don’t
even need it for this. I know that the liens on the
property from what you just said are worth more
than the property.
MR. WEININGER: Correct.
THE COURT: So what does your client get out of all
of this—
MR. WEININGER: He gets—
THE COURT:—if I grant relief on the merits? What
does he get?
MR. WEININGER: Two things.

App.50a
THE COURT: I am listening.
MR. WEININGER: Sure. He gets his taxes that are
currently due substantially decreased.
THE COURT: Okay.
MR. WEININGER: That is number one. And number
two, if your Honor so chooses and you decide to
rescind the entire foreclosure sale which you
have the authority to do, then he would reclaim
title all together and we start from square one.
THE COURT: But if you start from square one, he
was at square one and didn’t do anything for years
other than live there for free.
MR. WEININGER: Well—
THE COURT: He didn’t pay his mortgage, correct?
MR. WEININGER: He was unable to.
THE COURT: He didn’t pay his mortgage, correct?
MR. WEININGER: True.
THE COURT: Could have refinanced if there was
any equity there.
MR. WEININGER: Assuming his credit was up to snuff.
THE COURT: Do you want a violin?
MR. WEININGER: I am just dealing with the facts.
THE COURT: I am trying to figure out whatever
they settle the liens for, doesn’t that reduce his
tax by that amount?
MR. WEININGER: According to what we said in our
brief and calculations—

App.51a
THE COURT: No, no. According to what you are saying
now, does it or does it not?
MR. WEININGER: It does not satisfy it to the extent
it would if your Honor compelled the Government
to foreclose on their lien. And we are talking—
THE COURT: I understand that.
MR. WEININGER: We are talking about an 80 percent
reduction.
THE COURT: It becomes a credit against his
outstanding taxes, correct.
MR. WEININGER: It does.
THE COURT: Okay. What is the other thing that he
gets out of this? You said there were two.
MR. WEININGER: Right. So to reiterate. Number one
is more of a portion of his outstanding tax
liabilities will be paid off if your Honor orders
the Government to foreclose on their lien. And
we are talking about an 80 percent difference
between their arrangement and if the Government
would foreclose on their lien. That is number
one. Or, number two, if your Honor ordered the
rescission of the foreclosure sale he would
reclaim title and have the possibility to once again
attempt to pay off the mortgage and then,
through the sale of the property, and pay off the
Government.
THE COURT: He had that opportunity from day one.
MR. WEININGER: He did have the opportunity.
THE COURT: He chose not to. Let’s forget that I said
we could go to the merits. I am done with the
merits. Tell me why your client has standing.

App.52a
MR. WEININGER: He has standing for three reasons,
let’s say.
THE COURT: You can say five or ten.
MR. WEININGER: I am trying to enumerate them in
my head so I have clarity for you, at least, not for
me. Number one, we have to look at the statute
itself. And 2410 only requires that there be a
dispute about lien priority and that the lien
priority affects a lien of the Government.
THE COURT: Okay.
MR. WEININGER: Period.
THE COURT: So—
MR. WEININGER: If I might add one thing.
THE COURT: No. If I were to retire—
MR. WEININGER: If you were to retire?
THE COURT: If I were to retire and wanted something
to do I could search the records and find a situation
like this on a piece of property that I had no
interest in but because there is a lien dispute, I
would have standing?
MR. WEININGER: That would be incorrect.
THE COURT: Okay.
MR. WEININGER: Because, in addition—
THE COURT: How can I retire?
MR. WEININGER: I wouldn’t want you to.
THE COURT: Actually I’m retired.
MR. WEININGER: Does senior status count?

App.53a
THE COURT: That does count. You have to appoint
somebody. But you might change your view if I
rule against you.
MR. WEININGER: I would not, your Honor.
THE COURT: Okay.
MR. WEININGER: The reason why no one off the
street, say, John Smith, can come in here and
file a lawsuit is because in addition to the requirements under 2410 there must be Article III
standing. And this particular case—it is a very
unique case. The closest case on point is
Raulerson out of the 11th Circuit from 1986. There
are problems with that opinion.
THE COURT: Here is what is wrong.
MR. WEININGER: Am I too close?
THE COURT: Exactly. And we should put a note on
there because you are not the first one who has
done that.
MR. WEININGER: But can you hear me?
THE COURT: Yes.
MR. WEININGER: Can you hear me now?
THE COURT: Continue.
MR. WEININGER: So getting back to the point, this
particular case is unique because it’s a lien
priority dispute involving a lien to the Government.
So we have two requirements satisfied there under
2410. And what prevents John Smith from coming
off the street is that Mr. Hunter has Article III
standing, again, for two reasons. Number one is
that more of his outstanding tax liabilities will

App.54a
be paid off if your Honor grants the relief he
seeks. Or, two, if you grant the relief of
rescission, he reclaims title all together. And,
again, we are not talking to the merits. I
understand that. But for purposes of jurisdiction, he satisfies standing under Article III—
THE COURT: You answered my question and it’s
consistent with your position in your brief and I
thank you.
MR. WEININGER: Thank you, your Honor.
THE COURT: Let’s hear the Government’s—first of
all, does Sterling want to talk or are you going to
adopt the Government?
MR. GOROSH: We are going to have the Government
go first and I am going to make a few points after.
THE COURT: Okay.
MR. MOORE: Thank you, your Honor. Just to address
that last point, your Honor, while Article III
standing, the Government did not—we agree Mr.
Hunter would receive a windfall in the event that
he were successful and, therefore, he probably
would have Article III standing. But there is also
other outstanding considerations. And one of those
primary considerations is, are you enforcing your
own interest? And he is not. He’s looking to enforce
the Government’s interest. He’s suing the Government to have the Government enforce its
interests. And that’s the issue here, your Honor,
is that this 2410, he said he could have this
remedy under the Declaratory Judgment Act but
the Declaratory Judgment Act does not waive

App.55a
sovereign immunity. He has to fit his action
within Section 2410.
And this Court has already spoken to what the
current interest, the requirement of a current
interest. The court said in Little Italy (ph) that
it’s well settled that Section 2410 plaintiff must
be able to claim some presently held property
interest of its own to bring a Section 2410 quiet
title action. That is not what he’s doing here.
Raulerson, they had mentioned that this remedy
that he is seeking isn’t available under Section
2410 because you can’t force the United States to
enforce its federal tax liens. The tax liens belong
to the United States and the United States has
the discretion of whether or not to enforce them.
The United States could have done nothing after
Sterling bought this property and that would have
been it.
THE COURT: Let me ask you this. And, again, perhaps
getting to the merits too much—what—before I ask
a question, do you have a case that supports your
last argument?
MR. MOORE: Yes, your Honor. It’s that Raulerson case.
786 F.2D.
THE COURT: That’s an 11th Circuit case?
MR. MOORE: Yes, your Honor. And they specifically
said, and this was in a very, very similar circumstances, very similar plaintiff position. And the
Court said because the Government, not the
taxpayer nor the judiciary, decides which property is to be sold to satisfy taxes, it would be
anomalous to determine that the Government has

App.56a
consented to a suit to compel the IRS to foreclose
on a specific property.
THE COURT: Let me ask this question. When you
reached a settlement with Sterling, did that do
away with the liens? It obviously did. But did
it—how much did it reduce the tax balance owed
by Hunter?
MR. MOORE: Two answers first, your Honor. I’m not
sure that we would concede that the liens have
been extinguished by virtue of the settlement.
For instance, if the settlement were to go away,
the United States may want to enforce its federal
tax liens and they would still be there. But with
respect to the heart of your question which is how
much are we expecting to realize, the settlement
calls for us to receive 50 percent of the net proceeds which we defined in the Settlement Agreement.
THE COURT: Got that. And it’s an unknown what
you are going to get. But my question, it’s irrelevant what you get. The question is, for whatever amount of the tax liens face value presumably based on failure to pay taxes, does his tax
liability go down by the face value of the liens or
by the amount actually received pursuant to the
Settlement Agreement?
MR. MOORE: It would be the amount received pursuant to the Settlement Agreement. So the
overall tax liability will only be reduced by what
we receive from Sterling.
THE COURT: Basically—well, let’s hear from Sterling.

App.57a
MR. GOROSH: Again, Bruce Gorosh on behalf of Sterling. Your Honor, plaintiff’s counsel stated in oral
argument that he believes that his client does
not need to have an interest in the property to
pursue a quiet title action. And I submit to the
Court that that is an incorrect statement of the
law in Michigan. It is a Quiet Title action and
Quiet Title actions must comply with Michigan law
even though here it’s postured in the Federal
Court. And we cited the applicable sections of
Michigan Court Rules 3.411 and Michigan Compiled Laws, I think it’s 600.2932. Plaintiff must—
is required to plead what its interest in the property is. They are required to plead what the
interest of the defendant’s is. And they are required to plead how their interest in the property is
paramount to the defendant’s. They haven’t done
that in this case. But, more importantly, they can’t
do that in this case because they have admitted
that they don’t have an interest in the property.
It is a fundamental flaw that prohibits them
from pursuing this cause of action and supports
the dismissal of the lawsuit as we have pled in
our motions.
THE COURT: Does that go to my jurisdiction?
MR. GOROSH: It does go to 2410 because there is
only a waiver if they can pursue a Quiet Title
action and we know that in this case they can’t
because they can’t meet the pleading requirements
and they haven’t met the pleading requirements
under Michigan law.
THE COURT: And basically both defense argument
is now that you raised the word waiver is the
inaction of the plaintiff during the foreclosure

App.58a
proceedings acts as a waiver of any standing that
he might have had in the foreclosure proceedings.
MR. GOROSH: That’s correct. And I would like to point
out a point that the plaintiff’s rights in the real
estate was not terminated until October 11th of
2017. The underlying lawsuit was settled. I believe
the stipulation was signed September 15th of 2017
and the order dismissing the underlying case was
entered on September 15th. They could have
filed a lawsuit before their rights in the property
were terminated. They didn’t do that. And they
have lost any right to do that now.
THE COURT: Okay.
MR. GOROSH: Thank you, your Honor.
THE COURT: Any last words from the plaintiff?
MR. WEININGER: Yes, your Honor. I would just like
to bullet point some issues. One is counsel for
the Government mentioned that the Declaratory
Judgment Act does not waive sovereign immunity.
We are not claiming that it does. All we are saying
is you must distinguish those two concepts and
say if there is a waiver of sovereign immunity, if
your Honor determines there is under 2410, then
you are not precluded by the Declaratory Judgment
Act from basically requiring a recession. That is
our point.
But we are not saying, again, just to clarify, we
are not saying that the Declaratory Judgment Act
itself constitutes a waiver of sovereign
immunity. It does not. It’s 2410 that is where
the waiver of sovereign immunity comes into
play.

App.59a
Counsel for the Government also mentioned Raulerson as I did. And Raulerson is a very factually
on point case. But the difference with Raulerson,
the Government mentioned in Raulerson in the
11th Circuit said that the IRS had the discretion
to levy on interests as they saw fit. We have to
remember that Raulerson was decided in 1986.
And that pre-dates the taxpayer Bill of Rights
which now guarantees tax payers that tax enforcement measures will not be more intrusive than
necessary. So that statement in Raulerson as far
as we are concerned has no applicability anymore
because it predates the taxpayer Bill of Rights.
And then with respect to Sterling’s counsel, he
has yet to cite a case that says that this Court
must look to Michigan law when it comes to the
elements of 2410. And I would challenge him to
do so because there is no case that says that 2410
must somehow incorporate state law principles,
In fact—
THE COURT: Stop.
MR. WEININGER: Sure.
THE COURT: You challenged him. Who wants to
respond? And you don’t have to move as long as
you promise no wrestling or fisticuffs.
MR. GOROSH: I promise. My reference was not to 2410.
My reference was to Quiet Title under Michigan
law. Again, even though we are in the Federal
Court, a Quiet Title action must, on Michigan
property, must meet the pleading requirements
of Michigan law. And that is very clear under
statute, under common law, and under the court
rules. And now we didn’t cite any case law in our

App.60a
brief but we did make reference to the statute,
600.2932 and the Michigan Court Rule 3.411. I
brought my court rules. I could read the section
into the record but the pleading requirements for
quiet title actions under Michigan law are very
clear. And they have purported to set forth a Quiet
Title claim in their complaint and they haven’t
met those pleading requirements. But the more
important factor is they can’t meet the pleading
requirements under Michigan law because of
their admission that they don’t have an interest
in the property.
THE COURT: Thank you. Last point or last points?
MR. WEININGER: Last two points. Again, your Honor,
counsel, with all due respect, did not cite a single
case requiring this Court to enforce Michigan
Court Rules in order to supply the elements of
2410. In fact, I point your Honor to the case of
Progressive Insurance which was a First Circuit
case in 1993. And the Government raised a very
similar argument and the First Circuit Court of
Appeals completely dismissed it and said that
2410 was not bound up in the substantive elements
of a claim under state law. The Federal Courts
have their own prerogative to interpret 2410 as
they see fit.
THE COURT: Did you represent your client during
the foreclosure period?
MR. WEININGER: I did not.
THE COURT: Did he have a lawyer?
MR. WEININGER: I can’t speak one way or the other
to that. I’m not sure.

App.61a
THE COURT: Okay.
MR. WEININGER: And just, again, I will finish that
one point on the Michigan court rules. It’s
interesting to note, I printed out a copy and
brought it here today of Michigan Court Rule
3.411B. And it’s interesting to note the disparity
between what Michigan law requires as a pleading
requirement and what 2410 does. Michigan law
requires that the plaintiff plead his own interest
in the property and that requirement under 2410
is conspicuously absent. There is no requirement.
The only requirement under federal law of 2410
is that the plaintiff plead the Government’s interest
in the property because that’s all that matters.
THE COURT: So you are equating this to a qui tam
action where your client is helping the Government out?
MR. WEININGER: I am not equating to a qui tam. I
would not say that. We are not claiming that we
are helping the Government. We are claiming that
Mr. Hunter is—what Mr. Hunter wants is his
tax liabilities paid off to the most that they can
be based on the sale of that property. Obviously
the IRS has an interest in paying off as much
liability as they can. For some reason they
choose not to. But Mr. Hunter certainly does.
THE COURT: Mr. Hunter, there is no question he
had notice of the foreclosure. It’s only the IRS—
MR. WEININGER: That is true.
THE COURT:—that received the letter.

App.62a
MR. WEININGER: That is true. That is the main
point of contention. The Government did not
receive appropriate notice under the code.
As a final matter to address what Mr. Gorosh
was commenting on, the fact that the timing
between the prior lawsuit being dismissed and
this case, it’s perfectly explainable which is that
Mr. Hunter had no idea that the Government and
Sterling were going to cut an undisclosed side
agreement and diminish the amount of tax liability
that would be paid off from the sale of the property.
They didn’t disclose the Settlement Agreement
to your Honor when they filed the stipulation.
They didn’t disclose it to us when they asked for
our consent to stipulation of dismissal. If they
had we probably would have not granted our
consent to the dismissal of that prior action. And
that is the very reason why this lawsuit came
into play which is that the Government and
Sterling cut an undisclosed side arrangement
between themselves.
THE COURT: Were you representing them at that
time?
MR. WEININGER: Yes, we were.
THE COURT: And you didn’t ask for that?
MR. WEININGER: We were never informed there was.
We were just told that the case was going to be
dismissed, period. We were not informed of the
side arrangement between the Government and
Sterling. Their attorneys are here. You may ask
them if they informed us. They would tell you
they did not.

App.63a
THE COURT: You don’t have to step aside. He can
talk loud. Did you inform him of the settlement?
MR. MOORE: No, your Honor. But I take exception
to the idea that this is somehow improper. The
idea—when we filed the suit, Mr. Hunter filed
an answer in that case where he said that the
Government doesn’t have an interest, and the only
interest the Government has was redemption. He
has actually taken an opposing view to what he’s
currently taking. To suggest the reason why we
are here today is because of this side arrangement
is just not true. And, again, I want to put it on
the record, there was nothing improper about this.
The Government made an assessment of its litigation hazard and it settled the case based on
that. And since I am up here, your Honor, if I
could also with briefly address one other statement
or would you like me to wait?
THE COURT: Continue. This will be your last chance.
MR. MOORE: The last point I would make is while
plaintiff was saying we failed to cite a case that
had to do with Michigan—where the court has to
follow Michigan law, it’s not our job to cite a case
to show the Court that it has jurisdiction. It’s
the plaintiff’s job to show it has jurisdiction. And
while reference was made to the Progressive case,
I submit to you that not a single case that they
cited stands for the proposition they can bring a
Quiet Title action when they don’t have a current
interest in the property. In Progressive, the
plaintiffs had a lien interest in the property. You
don’t have to be a title holder or a lien holder
under 2410. It’s not sufficient to just plead the
Government’s interest. And that’s what all the

App.64a
case law has held. There is no case law in the
other direction.
THE COURT: Your last point if you have one. You
don’t have to.
MR. WEININGER: I will take the opportunity very
briefly, your Honor. When it comes to Progressive,
the only issue I was citing that case for was in
response to Sterling counsel’s position that state
law somehow incorporates the 2410. It is not and
I will leave it at that. When it comes to the Government’s position that we need a current interest in the property now, I would point your
Honor to the Third Circuit opinion to Gobackian
(ph) in which Judge Leitman discounted in his
opinion, but I think is very appropriate because—
THE COURT: You are talking about the Little Italy
case?
MR. WEININGER: The Little Italy case, correct.
THE COURT: Why are we talking about Judge
Leitman’s opinion?
MR. WEININGER: Because Judge Leitman considered—
THE COURT: Let me finish. Wasn’t Judge Leitman’s
Opinion affirmed by the Sixth Circuit?
MR. WEININGER: I believe it was.
THE COURT: Okay. So what did the Sixth Circuit
say about this point?
MR. WEININGER: The Sixth Circuit in this regard
mentioned the fact that the taxpayer in Little
Italy had no ownership interest in the property
at all. And the tax lien at the time he commenced

App.65a
his action was no longer on the property. It had
been released. Those facts are not what we have
here. What we have here is a tax lien that is still
on the property just like in the Third Circuit
case of Gobackian (ph). The Third Circuit allowed
the taxpayer to commence the action under 2410
even though they had no current interest in the
property. And the reason for that was the Third
Circuit opined that the fact that the tax lien
existed on the property at the time the taxpayer
brought suit was sufficient enough for the Court
to have—for the Court to determine that the
Government waived sovereign immunity under
2410. And that is why Gobackian (ph) is so critical.
THE COURT: It’s interesting that it’s so critical you
didn’t mention it until just now.
MR. WEININGER: That’s true. I didn’t.
THE COURT: Sort of the caboose to protect the
train?
MR. WEININGER: I think it’s a matter of when the
Government raises a position I believe we would
be entitled to marshal case law to counter that.
THE COURT: What about his point that your position
today is different than the position was when
you filed the answer in the first lawsuit here?
MR. WEININGER: I believe what I would say to that
is that is the pot calling the kettle black. The
Government has also reversed its position.
THE COURT: Sometimes the kettle is black.
MR. WEININGER: Sometimes it is. Sometimes it’s
not. And in this case the Government did a

App.66a
complete 180 from its position in the first case.
Their sole contention in that prior lawsuit was
that Sterling had absolutely no interest in that
property because the Government was never
notified under Section 7425 of the code. Now, lo
and behold, they have reached this undisclosed
this side arrangement and now the Government is
changing its tune and saying, well, they never
say that Sterling actually has an interest. All
they say is that, well, it looks like Wells Fargo
mailed it out but the Government does not contest
that the IRS never actually received the letter
from Wells Fargo notifying them of the sale. That
is a huge problem for the Government. And it’s a
complete about face from their position in the
prior case. Thank you, your Honor.
THE COURT: Thank you. Did you cite the Third Circuit
case in your response?
MR. WEININGER: I did—
THE COURT: Or in your brief?
MR. WEININGER: I did not. But it is referenced in
the Little Italy case which we did cite in your
briefs and distinguished.
THE COURT: Do you want to respond to your about
face argument and that’s all?
MR. MOORE: Yes, your Honor.
THE COURT: Do you want to do it facing the back
wall?
MR. MOORE: Thank you, your Honor. There was no
about face, your Honor. We settled the case because
we recognized there was a litigation hazard. If

App.67a
that litigation hazards still exists, even if the
Court did find jurisdiction and we went forward,
there is still a chance the Court would find—there
was never a question of whether Sterling had an
interest. The only question was whether or not
the Government’s interest was superior. And we
haven’t changed our position there. We still think
we may be superior but it could go the other
direction. The Court could find that Sterling
beats us. So we haven’t changed our position. We
settled the case based on litigation hazards.
THE COURT: Thank you.
MR. GOROSH: Your Honor, may I make one brief
point?
THE COURT: Sure.
MR. GOROSH: With respect to the settlement and
counsel’s knowledge of it, counsel never inquired
what the premise of the settlement was. He talks
about this side agreement as if it was some surreptitious thing. We settled a lawsuit as counsel—
my co-counsel stated. We assessed litigation risks.
And Sterling disputes the contention that there
was not proper notice here. Our contention in the
underlying lawsuit was that the statutory requirements were met and the IRS liens were therefore
terminated. If we had prevailed, the Government
would have received nothing and Mr. Hunter
would have received no benefit. I suspect that
counsel would have, for the plaintiff, would be
running into court then arguing that the Government’s failure to settle with us and lock in a
guaranteed benefit was the reason for their-Hunter’s loss of that benefit because he keeps

App.68a
arguing both sides. But all our settlement did
was assess the litigation risks and lock in benefits
for all the parties because now the IRS is guaranteed under the formula of our settlement one
half of the proceeds which will be applied against
Mr. Hunter’s tax debt. It’s a benefit to everyone.
Thank you, Judge.
THE COURT: All right. I will tell you how I am
leaning. First of all, I was leaning to decide this
from the bench. But I think both of you deserve
or all three of you deserve a written Opinion. But
if I were the plaintiff I wouldn’t be too optimistic
because as of April tenth, as of the date of this
lawsuit, your client had no interest and therefore I probably have no jurisdiction. But I will
relook at the couple of the cases cited. And I
would hope to have an Opinion within 30 days.
We are in recess. Thank you.
MR. MOORE: Thank you, your Honor.
MR. WEININGER: Thank you, your Honor.
MR. GOROSH: Thank you, your Honor.

